           U.S. Department of
                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:                                                                   Date:    May 18, 2009
           INFORMATION: ARRA Advisory – DOT’s
           Suspension and Debarment Program
           Department of Transportation
           Advisory No. AA-2009-001

 From:     Calvin L. Scovel III                                         Reply to
                                                                        Attn. of:   J-1
           Inspector General

    To:    The Secretary
           Deputy Secretary

           Attached is an ARRA Advisory on the Department of Transportation’s Suspension and
           Debarment Program. Consistent with ARRA and OMB guidance, Inspectors General
           are expected to promptly report potential management and funding risks that could
           impact the effective and efficient use of ARRA funds. We are not requesting a formal
           response to this advisory as the key issues and proposed actions included in it were
           briefed to cognizant Departmental officials and audit liaisons in advance of issuance. We
           plan to include the information in this advisory in a full audit report to be issued at a later
           date.

           We will be posting the advisory on our Web site (www.oig.dot.gov/recovery) and
           Recovery.gov. If you have any questions, please call me at (202) 366-1959 or
           Mark Zabarsky, Assistant Inspector General for Acquisition and Procurement Audits, at
           (202) 366-5225.


           Attachment


           cc: Senior Procurement Executive
                Federal Railroad Administrator
                All Acting Modal Administrators
                Martin Gertel, M-1

                                                         #
AA-2009-001                                                                                   MAY 18, 2009


                 U.S. DEPARTMENT OF TRANSPORTATION
                 Office of Inspector General


                        ARRA ADVISORY
                 American Recovery and Reinvestment Act

     DOT’s Suspension and Debarment Program
Key Issue
DOT’s policy and process governing its Suspension and Debarment (S&D) Program needs to ensure timelier
processing and reporting of S&D actions. Inattention to this vulnerability creates the risk that government
funds, including ARRA program dollars, will be awarded to businesses and individuals that have committed
fraud or are otherwise known to be irresponsible.

Proposed Actions for Change
The Office of the Secretary of Transportation (OST) should (1) revise the policy and process to prevent
irresponsible businesses and individuals from conducting business with the Department, and (2) assign
responsibility to a specific office to monitor and oversee Operating Administrations’ implementation and
compliance with the policy.


Background
The American Recovery and Reinvestment Act of 2009 (ARRA) allocated more than $48 billion to DOT to
invest in our nation’s transportation infrastructure. When used properly, suspension or debarment (exclusion)
of dishonest, unethical, or otherwise irresponsible businesses or individuals from conducting business with
the government is a powerful tool to protect against the misuse of ARRA dollars. Federal agencies can
suspend or debar businesses or individuals from receiving contracts, grants, cooperative agreements, or loans
for reasons such as a conviction or indictment for a criminal offense or a willful failure to perform to the
terms of a contract. One agency’s suspension or debarment decision precludes all other agencies from doing
business with an excluded party.

In its April 2009 memorandum, Updated Implementing Guidance for the American Recovery and Reinvestment Act of
2009, the Office of Management and Budget (OMB) states that federal agencies should place special emphasis
on awarding contracts to responsible sources—those that are determined to be reliable, dependable, and
capable of performing required work. In addition, the President recently emphasized in a March 2009
memorandum that merit-based selection criteria should be used when making awards, including a
“demonstrated or potential ability to deliver programmatic results.”

DOT has delegated responsibility for initiating S&D actions to the Operating Administrations (OA), which
award DOT’s contracts, grants, and cooperative agreements. Our ongoing audit work on DOT’s S&D
program identifies vulnerabilities that increase the risk that the Department’s ARRA funds will not be spent
effectively. The tight time frames and significant funds awarded under ARRA heighten this risk.


We are issuing these advisories to promptly report potential management and funding risks
consistent with ARRA and OMB guidance.
         DOT
         OIG

         DOT’s Suspension and Debarment Program
What We Found
Despite June 2005 revisions, DOT’s S&D policy and implementation remain insufficient to ensure more
timely processing and reporting of S&D actions. These deficiencies leave the Department and other
government agencies vulnerable to doing business with irresponsible businesses and individuals. Specifically,
we found as of March 31, 2009:

•     Of the 34 OIG referrals made to OAs for suspension or debarment decisions, 26 (76 percent) were not
      processed within 45 days, as required by DOT policy. For 20 of these, OAs took 135 to 1,046 days to
      render final decisions. Six referrals—debarments—still await decisions from debarring officials; such
      decisions have already taken 187 to 1,193 days. Major contributing factors include a lack of accountability,
      the part-time nature of S&D work, and unclear policy.

•     For 63 of 132 completed S&D decisions, DOT officials did not adhere to federal and departmental
      regulations to report excluded parties to the government’s web-based Excluded Parties Listing System
      (EPLS) within 5 work days of a suspension or debarment. Fourteen of these cases were more than 100
      days late. According to the Department, incomplete data and poor recordkeeping caused the delays.

•     For the 49 suspended or debarred businesses we reviewed in EPLS, 24 (49 percent) did not have Data
      Universal Numbering System (DUNS) numbers—unique nine-digit numbers assigned to businesses that
      enable agencies to conclude confidentially whether a business is an excluded business. Federal regulations
      require agencies to enter this information into EPLS.

•     The Department did not provide sufficient oversight to ensure it had an effective S&D program and
      departmental policy did not assign monitoring of the program to a particular office.

Future OIG-related Activities
The information in this advisory will be included in a later audit report and will contain recommendations,
along with any departmental actions taken in response to this advisory. We are not requesting a formal
response to this advisory. The advisory will be posted on our Web site (www.oig.dot.gov) and Recovery.gov.


    For information on this advisory, contact Mark Zabarsky, Assistant Inspector General for
    Acquisition and Procurement Audits, at (202) 366-5225.




                                                         2
